THE QLAW FOUNDATION

/

J. Denise Diskin
Executive Director
denise@olawfoundation.org

OF WASHINGTON

J

LAW
August 24, 2021

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Re:

Seattle's Union Gospel Mission v. Woods, No. 21-144

Dear Mr. Harris:
I am counsel of record for Respondent in this case. Additional co-counsel on the case
are listed below. I have submitted my application for admission to the United States
Supreme Court Bar but am not yet admitted. I acknowledge that the brief in opposition must
be filed by a Bar member. I am writing to request a 60-day extension of time in which to file
the brief in opposition. The brief is currently due on September 1, 2021; granting this request
would make the brief due November 1, 2021 (per Supreme Court Rule 30.1, as the 60th day,
October 31, is a Sunday). This request is necessary because of the heavy press of other
business at QLaw Foundation of Washington, as well as trials scheduled for myself and cocounsel during the month of October. Petitioner's counsel agreed to this request by email on
August 16, 2021.

Thank you very much for your time and assistance in this matter.

Very truly yours,

nnifer Denise Diskin
ounsel for Respondent
QLaw Foundation of Washington
101 Yesler Way #300
Seattle, Washington 98104
(206) 483-2725
denise@q1awfoundation.org

RECEWED
AUG 2 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Educating the public and empowering the community.
www.olawfoundation.org 1101 Yesler Way #300 Seattle, WA 98104 I (206) 483-2725

Page 12

Co-Counsel for Respondent:
Sara Amies
Seattle Employment Law Partners, PLLC
705 Second Avenue, Suite 1200
Seattle, WA 98104
(206) 899-5448
sara@seaemplaw.com.
Andrew Kashyap
Legal Voice
907 Pine Street, Suite 500
Seattle, WA 98101
(206) 682-9552
andrew@legalvoice.org

cc:

All Counsel

Educating the public and empowering the community.

www.qIawfoundation.org 1 101 Yesler Way #300 Seattle, WA 98.104 I (206) 483-2725

